<html>
<title> - LRA, BOKO HARAM, AL-SHABAAB, AQIM AND OTHER SOURCES OF INSTABILITY IN AFRICA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






 LRA, BOKO HARAM, AL-SHABAAB, AQIM AND OTHER SOURCES OF INSTABILITY IN 
                                 AFRICA

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 25, 2012

                               __________

                           Serial No. 112-142

                               __________

        Printed for the use of the Committee on Foreign Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

73-998 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Donald Y. Yamamoto, Principal Deputy Assistant 
  Secretary, Bureau of African Affairs, U.S. Department of State.     7
The Honorable Daniel Benjamin, Ambassador-at-Large, Coordinator 
  for Counterterrorism, Bureau of Counterterrorism, U.S. 
  Department of State............................................    29
Ms. Amanda J. Dory, Deputy Assistant Secretary for African 
  Affairs, Office of the Secretary of Defense, U.S. Department of 
  Defense........................................................    42

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Committee on Foreign 
  Affairs: Prepared statement....................................     2
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California: Prepared statement....................     4
The Honorable Donald Y. Yamamoto: Prepared statement.............     9
The Honorable Daniel Benjamin: Prepared statement................    31
Ms. Amanda J. Dory: Prepared statement...........................    44

                                APPENDIX

Hearing notice...................................................    68
Hearing minutes..................................................    69
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    71
Written responses from the Honorable Donald Y. Yamamoto to 
  questions submitted for the record by:
  The Honorable Ileana Ros-Lehtinen..............................    75
  The Honorable Brad Sherman, a Representative in Congress from 
    the State of California......................................    96
  The Honorable Russ Carnahan, a Representative in Congress from 
    the State of Missouri........................................    98
Written responses from the Ms. Amanda J. Dory to questions 
  submitted for the record by the Honorable Ileana Ros-Lehtinen..   100
Written responses from the Honorable Daniel Benjamin to questions 
  submitted for the record by the Honorable David Rivera, a 
  Representative in Congress from the State of Florida...........   104

 
 LRA, BOKO HARAM, AL-SHABAAB, AQIM AND OTHER SOURCES OF INSTABILITY IN 
                                 AFRICA

                              ----------                              


                       WEDNESDAY, APRIL 25, 2012

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
2172, Rayburn House Office Building, Hon. Ileana Ros-Lehtinen 
(chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order. We 
are here today to examine the instability on the African 
Continent caused by the Lord's Resistance Army, LRA, led by 
wanted war criminal Joseph Kony; also Boko Haram; also al-
Shabaab and al-Qaeda in the Islamic Maghreb; and to conduct 
critical oversight of U.S. Counterterrorism efforts in the 
region.
    The ranking member, Mr. Berman, and I are forgoing opening 
statements and submitting them for the record for today's 
hearing, and I have asked our members to do the same so that we 
may receive testimony, conduct member questioning, and be able 
to adjourn today's hearing by 10:45 at the latest in order to 
quickly go over to Statuary Hall and be able to participate in 
the memorial service for our friend and departed colleague, the 
late Don Payne. And that is all right with you, Mr. Berman?
    Mr. Berman. Yes.
    [The prepared statements of Chairman Ros-Lehtinen and Mr. 
Berman follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much. And I know, Mr. 
Smith, you will be speaking at the memorial service as well.
    So the chair is pleased to welcome our witnesses. First we 
would like to welcome Donald Yamamoto. He is the Principal 
Deputy Assistant Secretary for African Affairs. He previously 
served as U.S. Ambassador to the Federal Democratic Republic of 
Ethiopia from 2006 to July 2009; Deputy Assistant Secretary of 
State in the Bureau of African Affairs from 2003 to 2006; and 
U.S. Ambassador to Djibouti from 2000 to 2003. We welcome you, 
Mr. Ambassador.
    Next we would like to welcome Daniel Benjamin. Ambassador 
Benjamin is the Coordinator for Counterterrorism in the Bureau 
of Counterterrorism. Prior to his appointment he served as the 
Director of the Center of the United States and Europe, and as 
a senior follow in foreign policy studies at The Brookings 
Institution from December 2006 to May 2009. For 6 years he was 
senior fellow in the International Security Program at the 
Center for Strategic and International Studies, from 1994 to 
1999, and he served on the National Security Council staff. 
Thank you, Ambassador.
    And last but certainly not least, I would like to welcome 
Amanda Dory. She is currently the Deputy Assistant Secretary of 
Defense for African Affairs in the Office of the Secretary of 
Defense. Prior to her appointment she served as Deputy 
Assistant Secretary of Defense for Strategy from 2008 to 2011 
and Principal Director for Policy and Planning from 2007 to 
2008, and as a strategist from 1999 to 2002.
    Without objection, the written statements of our panelists 
will be made a part of the record and we ask that you summarize 
your remarks. Without objection, we will begin with you, Mr. 
Ambassador.

STATEMENT OF THE HONORABLE DONALD Y. YAMAMOTO, PRINCIPAL DEPUTY 
ASSISTANT SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Mr. Yamamoto. Thank you very much, Madam Chairman, and 
members of the committee. In the face of terrorist threats and 
insecurity in Africa, military solutions in the first instance, 
while important in some cases, may prove counterproductive if 
not implemented and addressed in the context of other measures. 
We must therefore consider addressing the wide range of 
economic, political, and social factors that heal conflict and 
insecurity and take a comprehensive, holistic long-term 
approach.
    The situation in Mali for instance, represents a microcosm 
of the complex problems challenging Africa and the need to 
address security concerns within a wider context. There are 
four distinct yet interrelated crises facing Mali which must be 
managed separately yet simultaneously. First, a return to 
civilian authority and the reaffirmation of democratic 
institutions will ensure a strong, united country able to 
address other crises.
    Second, a democratic government must reach out and engage 
and dialogue with the Tuareg people of the north, addressing 
their concerns.
    Third, Mali faces a humanitarian crisis of well over 
190,000 internally displaced as well as refugees in neighboring 
countries.
    And fourth, Mali and its neighbors together have a stake in 
confronting the challenges posed by AQIM and other splinter 
groups such as Ansar al-Din.
    These challenges cannot be addressed in isolation but as 
interrelated issues. Security is fostered by the establishment 
of sound leadership, accountability to the people, transparent 
and democratic processes addressing the needs of the 
population.
    We look to security challenges through a wide lens, and 
that includes the five pillars articulated by the President in 
Ghana in 2009. Those five are: Strengthening democratic 
institutions, fostering broad-based sustainable growth, 
combating disease, improving public health and education, 
mitigating armed conflict, and helping Africans with 
transnational threats.
    Whether it is AQIM, al-Shabaab, or Boko Haram, extremist 
ideology, even those masquerading in religious terms, are 
antithetical, illegitimate and repulsive to the vast majority 
of Africans. Extremism is a violent cancer that exploits porous 
borders, capitalizes on human suffering, and feeds in 
undemocratic environments. Our engagement will be difficult but 
necessary, and must be based on several fundamental principles.
    First, regional ownership. Leaders must inspire their 
people and countries must own the process to address the 
challenges effectively. Our African partners have consistently 
said African security is Africa's responsibility.
    Second, promotion of good governance. Our security 
engagements cannot be separated from our long-term goals of 
good governance, civilian control of security forces, and 
respect for human rights. Extremist ideology takes advantage of 
political and economic vulnerabilities. They destroy lives and 
strengthen instability. Building credible government 
institutions at all levels and assisting legitimate authorities 
to respond to the needs of their people are vital objectives.
    And three and final, the development and economic 
opportunity. Investing in economic and social development is 
crucial for improving the security environment in Africa. 
Efforts to address insecurity are often hampered by poor 
infrastructure and the inability of national or local 
authorities to provide adequate services, educational and 
vocational opportunities.
    The road that we face will be long. It will be hard. It 
will be difficult. But through patience, hard work, 
coordination with our African partners, and promotion of 
democratic values, human rights, and opportunities will make a 
significant difference in the lives of Africans and for future 
generations.
    Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you so much.
    [The prepared statement of Mr. Yamamoto follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. And I would like to tell our 
wonderful panelists that you will notice that not many members 
are here right now. But as I explained to you, at this time 
from 9 o'clock to 10 o'clock we have our party conferences, so 
all of the members are elsewhere. But we have got the committed 
crew here.
    Thank you. Mr. Ambassador.

   STATEMENT OF THE HONORABLE DANIEL BENJAMIN, AMBASSADOR-AT-
      LARGE, COORDINATOR FOR COUNTERTERRORISM, BUREAU OF 
           COUNTERTERRORISM, U.S. DEPARTMENT OF STATE

    Ambassador Benjamin. Madam Chairman, members of the 
committee, thank you for the opportunity to appear before you 
today, and I join my colleagues, Ambassador Yamamoto and Deputy 
Assistant Secretary of Defense Dory, in welcoming the 
opportunity to discuss terrorism in Africa. I submitted 
testimony for the record that provides additional information 
about the Counterterrorism Bureau's programs and initiatives in 
Africa.
    Terrorism is a real threat in Africa and we have a whole-
of-government strategy to diminish that threat by building the 
capacity of our partners that have the will to take effective 
action and work cooperatively with their neighbors to deny 
terrorists the ability to move among their countries. This will 
require a sustained engagement, but we are already seeing 
positive results.
    We are also working with the nations of the region to 
counter violent extremism, thereby denying terrorists new 
recruits. We use all the instruments available to us: 
Diplomatic, development, law enforcement, military and 
intelligence. And we work bilaterally, regionally, and 
multilaterally through organizations like the Global 
Counterterrorism Forum.
    In considering the various terrorist threats across East 
and West Africa, the challenge can appear daunting. The great 
expanses of desert, porous borders, under resourced 
governments, all of these create an environment that offers 
many advantages to terrorists. We also remain concerned by 
reported communications, training, and weapons links between 
AQIM, Boko Haram, al-Shabaab, and al-Qaeda in the Arabian 
peninsula. These may have strengthened Boko Haram's capacity to 
conduct terrorist attacks; however, the lack of resonance of 
the al-Qaeda ideology within those communities and the 
commitment of the regional governments to join forces to 
counter the terrorist threat have helped contain these groups. 
If continued, these efforts will ultimately lead to their 
marginalization.
    That said, a number of different factors have converged in 
recent years to create a new and worrisome set of openings for 
terrorist organizations, particularly in the Sahel, West 
Africa, and the Horn of Africa. The turmoil associated with the 
ousting of the former Libyan regime has profoundly affected 
parts of West Africa and East Africa. Loose Libyan weapons and 
the return of refugees and mercenaries to their countries of 
origin across the Sahel has greatly increased the internal 
pressures faced by these countries.
    The current Tuareg rebellion and subsequent coup in Mali 
was spurred by these events and they have created a vacuum in 
the north of that country that has provided AQIM with greater 
freedom of movement. AQIM has historically being the weakest of 
the AQ affiliates. Yet recently the group has managed to fill 
its coffers with ransom money from kidnappings. These new found 
resources, the arms and the money together, along with the 
recent instability in Libya and Mali, have raised concern about 
this group's trajectory.
    In Nigeria, longstanding political and socioeconomic 
grievances in the north led to the creation of Boko Haram in 
2001. The group's attacks in the north, including one in August 
against the United Nations Headquarters in Abuja, signaled its 
ambition and its capability to attack non-Nigerian targets. 
U.S. Counterterrorism strategy in Nigeria is closely linked to 
the broader strategy of support for the Nigerian Government's 
reform efforts and increased respect for human rights. We are 
providing limited law enforcement training assistance to the 
Nigerian Government while also working to accelerate diplomatic 
efforts to convince them of the need to change their strategy 
with regard to Boko Haram from a primarily military response to 
one that also addresses the grievances felt by many in northern 
Nigeria.
    Al-Shabaab also continues to threaten countries in East 
Africa. In February, al-Shabaab and AQ released a joint video 
to formally announce the merger of the two organizations. And 
while it has demonstrated a willingness and ability to conduct 
attacks elsewhere in the region, as we saw with the July 2010 
attack in Uganda, al-Shabaab's attacks have primarily focused 
on targets inside of Somalia.
    With the assistance of both the African Union mission in 
Somalia, AMISOM, and Somalia's neighbors, the Transitional 
Federal Government has made significant gains in degrading al-
Shabaab's capability and liberating areas from al-Shabaab 
administration over the last year. Yet much work remains to be 
done in the region to further reduce the threat of terrorism, 
while working to safely provide humanitarian assistance, 
including to those inside al-Shabaab-controlled territories who 
are denied access to outside aid.
    The Department of State has a number of Africa programs to 
address the various emerging threats presented by these 
terrorist groups and other drivers of instability. And in this 
vein, the Trans-Sahara Counterterrorism Partnership (TSCTP) and 
the Partnership for Regional East African Counterterrorism 
(PREACT) are designed to strengthen the capacity of regional 
governments to combat terrorist threats and counter violent 
extremism while also fostering regional cooperation and 
building lasting partnerships.
    We believe we are making progress with a number of 
partners. Algeria, Mauritania and Niger have achieved real 
results against AQIM in the last year; for example, with the 
defeat of AQIM twice in the Ouagadou Forest on the border of 
Mauritania and Mali, the defeat of AQIM in the Mauritanian town 
of Bessikinou, and the capture of arms convoys transiting from 
Libya by joint Algeria-Niger operations.
    In the interest of time I am going to conclude my remarks 
here. Additional information on our various programs in Africa, 
including antiterrorism assistance, countering violent 
extremism, and counterterrorist financing are provided in my 
written testimony. Thank you very much.
    Chairman Ros-Lehtinen. Thank you very much.
    [The prepared statement of Mr. Benjamin follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Ms. Dory.

STATEMENT OF MS. AMANDA J. DORY, DEPUTY ASSISTANT SECRETARY FOR 
   AFRICAN AFFAIRS, OFFICE OF THE SECRETARY OF DEFENSE, U.S. 
                     DEPARTMENT OF DEFENSE

    Ms. Dory. Thank you. Good morning, Madam Chairman, members 
of the committee. Thank you for the opportunity to speak with 
you today about the sources of instability in Africa.
    I would like to begin by acknowledging the loss to the 
Nation and the committee of Congressman Payne.
    At the outset, I would like to note that African states and 
regional organizations are making significant progress in 
developing the ability to address security concerns and sources 
of instability on the continent. We are seeing this dynamic 
reflected in the robust role of the African Union mission in 
Somalia, or AMISOM, as well as in the African Union's leading 
role in facilitating negotiations between the Sudan and South 
Sudan, and in the economic community of West African states' 
work to facilitate a settlement in response to the recent coup 
in Mali. Nonetheless, our partners in Africa still lack key 
capabilities to address all the varying sources of instability 
across Africa.
    Given this reality, the Department of Defense in 
conjunction the Department of State continues to assist our 
partners on the continent with building their capacity to 
respond to security threats. Our efforts in this respect take 
multiple forms, including security assistance, exercises, 
rotational presence, advisory efforts, and training and 
equipping, as I will discuss in the context of specific 
threats.
    By assisting capable and willing African partners to 
address threats like the Lord's Resistance Army, al-Shabaab, 
al-Qaeda in the Maghreb, and Boko Haram, we help our African 
partners to create the space necessary to continue developing 
political and economically, which benefits both Africa and the 
United States.
    DoD's efforts are implemented in accord with two tenets 
from the recently released Defense Strategic Guidance. The 
first one is that acting in concert with other means of 
national power, U.S. military forces must continue to hold al-
Qaeda and its affiliates under constant pressure wherever they 
may be. The second tenet is that wherever possible we will 
develop innovative, low-cost, and small-footprint approaches to 
achieve our security objectives on the African continent, 
relying on exercises, rotational presence, and advisory 
capabilities.
    For example, in the operation to counter the Lord's 
Resistance Army, a small number of U.S. forces are supporting 
regional military forces in an advisory capacity and seeking to 
enhance our partners' capabilities to achieve their objectives 
against the Lord's Resistance Army. Elsewhere in East Africa, 
in response to the terrorist threats posed by al-Shabaab, DoD 
has provided training and equip support to African forces 
deploying as part of AMISOM, using section 1206 funding.
    In the Fiscal Year 2012 National Defense Authorization Act, 
Congress provided DoD with an additional important tool through 
an East Africa-specific train and equip authority, section 
1207(n). There is focus on building the capacity of the 
counterterrorism forces in the East Africa region.
    These authorities complement the program goals and 
objectives of State Department's Partnership for Regional East 
Africa and Counterterrorism, PREACT, that Ambassador Benjamin 
has just referred to.
    In the Maghreb and Sahel, DoD worked closely with the State 
Department to plan and implement the trans-Sahara 
counterterrorism partnership to address the threat posed by 
AQIM. DoD's military-to-military activities under the TSCTP 
seeks to build the counterterrorism capacity of key partners in 
the region. These include section 1206 authorities to train and 
equip partner nations as well as joint combined exchange 
training events and an annual counterterrorism focused exercise 
on a regional basis, Exercise FLINTLOCK.
    Based on proliferation concerns following the regime change 
in Libya, DoD has also incorporated Man Portable Air Defense 
System, or MANPADS, awareness and mitigation training in our 
mil-to-mil engagements.
    In Nigeria, the expansion of Boko Haram's capabilities is a 
source of increasing concern. In January 2012, DoD participated 
in the inaugural meeting of a regional security working group 
under the auspices of the U.S.-Nigeria Bi-National Commission 
with a focus on our cooperation in response to Boko Haram's 
threat. Most recently our efforts are focusing on counter-IED 
and civil military operations, but our engagement and 
cooperation can support the usual goals of addressing Boko 
Haram. We will continue to explore further areas to build 
Nigerian counterterrorism capacities.
    To sum up, in partnership with the State Department, the 
Department of Defense is working to address the range of 
sources of instability in Africa, from terrorism to piracy, 
with our partners across the continent and beyond. Thank you 
very much.
    Chairman Ros-Lehtinen. Thank you.
    [The prepared statement of Ms. Dory follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you to each and every one of 
you for your excellent testimony. We will begin our question-
and-answer period.
    I wanted to ask about the Lord's Resistance Army. President 
Obama announced, following the completion of the Nation 
Security Council progress report, that the U.S. will continue 
the deployment of a small number of U.S. military advisors to 
assist regional forces of countries fighting the atrocities 
committed by Joseph Kony and the Lord's Resistance Army.
    Please describe the goals and the status of U.S. efforts to 
counter the LRA and remove their operational capacity, the LRA 
leadership, and how is this success being gauged?
    Also, if you could describe the relationship between 
private- and U.S.-funded efforts to establish local cell phone- 
and radio-based monitoring and alert systems for LRA-affected 
communities. What happens to nonleadership LRA defectors both 
with regards to their intelligence value and the psychosocial 
needs and the capacity to be integrated, if at all possible, 
into their home communities? And finally, how frequent have 
defections been since the initiation of the current program of 
U.S. efforts to counter the Lord's Resistance Army? Thank you, 
Mr. Ambassador.
    Mr. Yamamoto. First is the goals and objectives of the 
teams--and I defer to Amanda Dory to give her explanations as 
well--is to build interoperability and build up the training 
programs of the 40 countries that are involved against the LRA. 
Right now the goals and objectives are really fourfold in order 
to isolate Kony and the other leaders, to support and assist 
those who are leaving, also to help with rehabilitation and 
reconciliation efforts.
    One of the things that has been proven very effective is 
what you just said, Madam Chairman, and that is the cell 
phones. Not so much high-tech, but basic good work. The USAID 
has provided about $100,000 to $200,000 worth of cell phones, 
cell phone towers. What it does, it helps alert communities 
when LRA groups are in area.
    The other thing, too, is on the number of defections. We 
have been working with the countries to do these--encourage 
defections, but also reconciliation and rehabilitation. As you 
know, in the beginning about 1.8 million to 2 million were 
displaced in Uganda. We have about 385,000 in the Congo and 
neighboring areas. The Ugandan forces themselves have spent 
about $15 million just since reconciliation. We are doing the 
same in those areas.
    I think the success rate is good. The issue is that it is 
only a matter of time. And we also want to thank you, Madam 
Chairman, and this committee for the support on counter LRA 
legislation and programs.
    Chairman Ros-Lehtinen. Thank you very much. Ms. Dory?
    Ms. Dory. To amplify Ambassador Yamamoto's comments, the 
DoD deployment is in support of the broader counter LRA 
strategy, the comprehensive one across the U.S. Government. The 
first leg of that is focused on civilian protection. The 
second, as he has referred to already, is on acquiring 
defections and reintegrating LRA detainees back into society. A 
third leg is providing humanitarian access. And then the 
fourth--and this is where DoD is at the forefront--is working 
to support the removal of Joseph Kony and key leaders of the 
LRA from the battlefield.
    So the advisory mission that DoD is engaged in is really 
working with and through the local militaries, four different 
military partners in the region. We have a variety of metrics 
of success and benchmarks that we are using, looking across the 
strategy, and it includes looking at the ability to provide 
humanitarian goods at the level of our access over time. It 
includes looking at the number of defections over time; the 
captures, the number of captures from the battlefield.
    From the DoD perspective some of the metrics that are 
important to us: The building of trust and relationships with 
each of the partner militaries, the access that is provided. 
Things that we focus on are reducing the amount of time from 
information that is garnered, whether through defections or 
other means, to actionable intelligence for use by the tracking 
teams, the Ugandan forces in particular, and looking at how we 
shrink the time between the intelligence and information to 
actual operations conducted. So that is a key metric as far as 
we are concerned.
    Chairman Ros-Lehtinen. Thank you, very much. Thank you, and 
please keep the pressure up. Thank you. Mr. Berman.
    Mr. Berman. Thank you very much Madam Chairman, and I have 
a bunch of questions. I would like the first couple to be real 
quick answers, if possible, so I can get them in.
    Ms. Dory, on the fourth objective can you--given 100 
military advisors working with local militaries and military 
partners, why haven't we been able to kill or capture Kony?
    Ms. Dory. That is an excellent question. One of our biggest 
challenges with the mission collectively is expectations 
management. And I think that is what you are helping us focus 
on. When you look at the operating terrain involved--and many 
use the comparison to the size of the State of California--
heavily forested, very limited infrastructure, it is very 
challenging terrain in which to find a small number of needles 
in a haystack. So that is the terrain challenge that faces the 
operating forces in the area.
    Mr. Berman. This does remain one of our objectives there, I 
take it?
    Ms. Dory. Removing Joseph Kony from the battlefield, and 
his key lieutenants, remains one of our objectives. A second 
challenge relates to the level of logistics support for the 
fielded forces. So given the terrain challenges, given that you 
have four different regional militaries that are working in 
collaboration together, is a very challenging operation.
    Mr. Berman. Second, maybe Ambassador Yamamoto, the Dodd-
Frank legislation required the administration to provide a--
prepare a map of mining areas and rebel-controlled areas to 
give us a sense of the relationship between--on the issue of 
conflict mining and support for these rebels. Where is that 
map?
    Mr. Yamamoto. We will be getting the mapping soon. We have 
been tracking all the mines and what type of materials are 
being produced. As you know, Mr. Berman, the Congo produces 
probably about 8 percent of all the minerals that are needed 
for cell phones and other types of high-tech equipment that we 
use in our daily lives.
    Mr. Berman. Yes, but the map?
    Mr. Yamamoto. And the map is coming out soon, sir.
    Mr. Berman. Soon? Like--like?
    Mr. Yamamoto. I have seen drafts and we worked on it. One 
of the issues on the mapping is that these are artisan mines 
that kind of spring up and then they close, et cetera. And 
those very hard to calculate. But we do have mapping, et 
cetera, ready.
    Mr. Berman. So you think we will see that by the end of 
May?
    Mr. Yamamoto. Before.
    Mr. Berman. Before. All right.
    A larger question: How do our executive branch agencies 
balance this desire to build cooperation on counterterrorism 
with the desire to promote human rights, good governance, 
civilian control of the military?
    You take Uganda and Ethiopia. They are strong partners on 
regional security, but neither of these governments are 
tolerant of strong political opposition or civil society. They 
are both hostile to a free press. How do you ensure in building 
up the counterterrorism capabilities that we are doing no harm 
to democracy and human rights, and the integration of the 
different roles to rule of law programs, in coordination with 
the security and capacity programs for the security forces?
    Ambassador Benjamin. I will perhaps leave some of the 
specifics on Ethiopia, a country that Ambassador Yamamoto knows 
very well, and Uganda, to him. But I would say that an 
interesting part of our antiterrorism assistance is always 
human rights training. There is always a human rights component 
to what we can do. Dory can address what is done by DoD in its 
capacity-building efforts. And it is also an integral part of 
our message to these countries that if they wish to diminish 
radicalization that it is absolutely essential that they 
observe human rights norms and ensure that that first contact 
or the sustained contact between citizens and the agencies of 
the state are benign ones and not ones that will in effect have 
a radicalizing impact.
    That is a core effort within what the CT Bureau is doing. 
And we have any number of different programs going on that are 
designed to underscore and promote human rights observance in 
all of these contexts. Perhaps Ambassador Yamamoto might have 
more details on this for you.
    Mr. Yamamoto. Just a couple of areas. In Ethiopia we have 
the NCO and officer training program, and what we have learned 
now is that those trained troops are better troops, they are 
bidding to civilian control, and they are very disciplined. 
They are one of the main peacekeeping troops in Darfur and 
Abyei and other places.
    The second area, too, is that we have been working with 
Prime Minister Meles and his government on various committees 
and groups on how to----
    Chairman Ros-Lehtinen. If you could turn on your 
microphone.
    Mr. Yamamoto [continuing]. On how to improve democracy, 
good governance, and various other programs. And so therefore, 
we are going to enter another program here in the United 
States. We did another program in Addis last year. I think 
these efforts and areas are getting the message out and we are 
having a lot better coordination and cooperation.
    Mr. Berman. My time has expired.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Smith is recognized. And if I could ask each of you to 
hold that microphone really close.
    Mr. Smith. Thank you very much. Thank you for your 
testimony to our very distinguished panelists and for your 
service to our country.
    Just again on Joseph Kony, if you could tell us what 
priority is being given by the United States and by the 
respective militaries in Africa to the killing or capture of 
Joseph Kony. We all know it is a priority, but how high is it? 
And how degraded is Kony's ability to murder and force young 
people into child soldiering?
    Mr. Yamamoto. Right now, in the coordination of the four 
countries, the priority is very high. In our discussions with 
President Bozize and his defense minister, who is his son, they 
have been very high on the priority in trying to coordinate 
with Ugandans, the DRC and others, Southern Sudan, in order to 
cordon off his escape routes and try to capture him. So it has 
placed a very high priority, and they have taken the leadership 
and the ownership in that regard.
    Mr. Smith. How degraded is his ability to wage his war of 
terror?
    Mr. Yamamoto. On Kony, we have been able to degrade his 
forces. It is now down to about 150 or so. There are about 800 
that are accompanying him, but the number of defections has 
increased. The only problem, of course, in the last 3 months is 
the number of attacks by Kony's groups has increased, but we 
are trying to limit those areas of operation.
    Mr. Smith. What is the reward or rewards for information 
leading to his capture? And how is that information 
disseminated?
    Mr. Yamamoto. The information right now--again we thank the 
Members of Congress on the Rewards for Justice. That is a good 
program. What it has done is given more publicity and to really 
advertise. And also the Invisible Children have done a great 
job with their Kony 2012 to get the message out. And so there 
is nowhere for him to hide, et cetera, so therefore we are 
looking for much more publicity----
    Mr. Smith. How is that information gotten out? Is it by 
radio? And to whom do they bring the information to?
    Mr. Yamamoto. Right. The average people in the areas. So 
therefore they know how to work to coordinate, to cooperate, 
and to further help in the capture of Kony.
    Mr. Smith. Have we gotten credible leads as to his 
whereabouts?
    Ms. Dory. Could I add a few accompanying points? The 
message in terms of encouraging defections and being able to 
provide monetary compensation in response to information leads 
is going out through leaflets that are dropped by air, it is 
going out by radio, it is going out through linkages of the 
forces and the civilians in the area. So it is kind of moving 
along the different pathways of communication. The Intelligence 
Community assessments as well as what our partners are telling 
us in terms of how degraded is Joseph Kony, the common 
assessment is that he has been significantly degraded and is in 
a survival and evasion mode at this point and on the move on a 
regular basis. So I think those are encouraging signs to us 
that are shared with our partners.
    Mr. Smith. Two final questions, because I am almost out of 
time. In the late nineties I chaired a series of hearings on 
the bombings in Tanzania as well as in Kenya, and I will never 
forget when Admiral Crowe told us at the hearing right here in 
this room how disappointed he was that while on the short term 
there is a vigilance, that vigilance wears down. And with the 
now-emerging threat of home-grown terrorist organizations, how 
aware or vigilant are we to those threats?
    And secondly, how has the consolidation of power by the 
Muslim Brotherhood and the Islamic parties in Egypt the 
jihadist organizations in sub-Saharan Africa, the nexus between 
Cairo and the south?
    Ambassador Benjamin. Thank you very much, sir, for those 
questions. On the issue of vigilance and home-grown or self-
starters, I think we are as vigilant as we possibly can be. It 
is well-known that the challenge regarding the home-grown 
threat is the collection. Intelligence collection is very, very 
difficult if people are acting on their own initiative and 
communicating very little, if at all, with others who share 
their ideology. But we are extremely concerned about this and 
we know, for example, that al-Qaeda in the Arabian Peninsula in 
its various publications is encouraging individual attacks, 
people not coordinating and the like, and we certainly share 
your concern on that and we are working as hard as we can on 
it.
    Regarding the Muslim Brotherhood, I think it is important 
to know that the Muslim Brotherhood in Egypt has not been 
associated with any violent attacks since the 1970s. In fact it 
has engaged in a very, very, sort of virulent debate with al-
Qaeda over many years. It is certainly true that Egyptian 
internal security has been challenged somewhat in the aftermath 
of the revolutionary events in Tahrir Square and elsewhere, but 
Egypt remains a close counterterrorism partner. As you know, 
the Internal Security Service was essentially replaced and the 
new one is being built. But we have not seen that the 
developments in Egypt having any notable effect on AQIM or al-
Shabaab or others in one way or the other. And I don't think we 
expect to see any.
    Those groups may benefit from some of the turmoil in a 
place like Libya, for example, because of loose weapons, but 
not because of what is going on in Egypt.
    And I would just say in closing that if anything, the 
transition to democracy is a huge blow to violent extremist 
groups because it demonstrates that change can come through 
peaceful measures and not, as bin Laden and others always 
communicated, only through violent change. So we view this 
actually as a hopeful set of developments, not one without 
bumps in the road, but nonetheless a very positive turn.
    Chairman Ros-Lehtinen. Thank you very much. Ms. Bass is 
recognized and she is now the ranking member on the 
Subcommittee on Africa.
    Ms. Bass. Thank you, Madam Chair, and Ranking Member. 
Before I begin, I wanted to mention that Mr. Smith and I 
tomorrow will hold a hearing on the current and escalating 
crisis engulfing Sudan and South Sudan. It is clear that if we 
are to see real lasting peace and security we must address some 
of the underlying causes of unrest and discord, not merely in 
Africa of course but around the globe.
    So I had a couple of questions I wanted to pose in this 
regard. How are our development and diplomacy efforts at USAID 
and the State Department directly addressing some of the root 
causes to strife and unrest, and what good governance and 
democracy promoting programs are having real success?
    Mr. Yamamoto. Thank you very much. I know that at your 
hearing tomorrow you will have Princeton Lyman and Errol Gass 
and they can address those in greater details. But generally we 
have been working nonstop on the diplomatic side, working with 
countries like the Arab League and China to disengage the 
forces between the north and the south, particularly on Heglig, 
et cetera, to bring stability to that region in the Southern 
Kordofan and Blue Nile region.
    In the area the USAID is continuing--it is our largest 
humanitarian assistance program in Africa, and we will continue 
to address not only the humanitarian assistance issues but also 
development, the education and the health-care programs. And I 
think tomorrow you will get great details on the projects.
    Ms. Bass. Great, thank you very much. Anybody else?
    Ambassador Benjamin. I would just add to that and say, 
broadly speaking, we in the Counterterrorism Bureau view our 
mission as being focused to a large extent on the strategic 
dimensions of counterterrorism, and by that I mean that we are 
looking at the upstream factors. We are looking at those 
drivers of radicalization and trying to figure out what we can 
do to blunt them and to diminish the likelihood of there being 
more recruits. We are involved in quite a number of different 
rule-of-law efforts and in countering violent extremism efforts 
that are trying to provide alternatives, for example, threat 
risk populations, particularly youth. And we also are involved 
in the messaging side of things, and have been deeply engaged 
in the standup and the operations of the Counterterrorism 
Strategic Communications Center, which was created by an 
Executive order by the President, within the State Department. 
It is an interagency effort and we have great support from DoD 
and from others in the interagency that have meant to 
essentially challenge the vast amount of propaganda that is out 
there, especially from al-Qaeda-related groups, and try to 
prevent people from embracing the ideology and turning to 
violence.
    Ms. Bass. Could you expand a bit more on what you were 
saying about the youth in terms of how you are specifically 
addressing the youth?
    Ambassador Benjamin. Well, we would be happy to give you a 
lengthier briefing on that. There is an awful lot going on. But 
we recognize that the people who are most at risk of becoming 
radicalized are the young. We are conducting programs that 
complement what AID does in the sense that they are doing the 
longer-term development work that is meant to provide key 
social services that obviously ameliorate the grievances that 
lead to radicalization.
    We are looking at hot spots, areas where we see 
particularly intense areas of radicalization, and trying to 
figure out what we can do there on the level of a state, a 
city, even a neighborhood, and figure out what it is that is 
driving radicalization there and what we can do to provide 
alternatives, often working with civil society organizations 
that are going to be better interlocutors with these young 
people and will be more credible with them and steer them away.
    So there may be leadership programs for young people, other 
kinds--could even be sports. It could be something that is 
bringing them together to establish a better relationship with 
law enforcement----
    Ms. Bass. Before I run out of time, I would appreciate it 
if you would give me more information at another time. Thank 
you very much.
    Ambassador Benjamin. We will.
    Ms. Bass. I wanted to ask a couple of questions with regard 
to the Reward for Justice program. And as Mr. Smith was asking 
questions about the reward for the capture of Kony, I was just 
wondering in terms of defections, have you been able to have 
some of his major lieutenants defect? Have people been 
responsive to the rewards program?
    Mr. Yamamoto. That is correct. And there have been 
defections especially of the lieutenants and other groups 
coming in and providing information about where locations--for 
example, Kony is such an elusive character and he travels very 
stealthily and it is very difficult. And they also do small 
groups.
    Ms. Bass. When you mentioned he has stepped up efforts and 
attacks, has some of it been in retaliation of our efforts in 
terms of the cell phones where the leaflets have been dropped? 
Has he been attacking those specific areas?
    Mr. Yamamoto. I think that needs further assessment but it 
is just basically random violence right now in areas.
    Ms. Bass. Thank you very much.
    Chairman Ros-Lehtinen. Thank you, Ms. Bass. Mrs. Schmidt of 
Ohio is recognized.
    Mrs. Schmidt. Thank you. I have three questions. The first 
is it how is State and DoD coordinating with resources to 
combat threats throughout the region?
    Ambassador Benjamin. I think we have very close 
coordination from the working level on up to the Situation 
Room, particularly through two comprehensive programs, the 
Trans-Sahara Counterterrorism Partnership, which deals 
primarily with the Maghreb and the Sahel, and also the PREACT 
which is its corollary in East Africa. Our staffs work very 
closely to identify needs and important programs that can 
address those needs, both on the military and the civilian 
side. And we feel that there is really an excellent give-and-
take on these issues. Perhaps Amanda has something else to add 
on that.
    Ms. Dory. Just briefly to amplify from a DoD perspective 
what Africa Command has been able to do is develop crosscutting 
regional campaign plans that are part of the DoD approach to 
engagement and long-term planning. So we have a Northwest 
Africa campaign plan, for example, that fits and aligns with 
the State Department TSCTP.
    Similarly, in East Africa there is an East Africa campaign 
plan that aligns with the PREACT countries. All of those 
benefit from State Department input but are written and 
promulgated in DoD'ese so they are able to be understood and 
cascaded within the DoD structure.
    Mrs. Schmidt. I know that AFRICOM is in parts of the 
continent of Africa. Where does it come in on stabilizing the 
region? AFRICOM, our military presence to help certain 
countries make their military more professional and it is a 
partnership and they--where is that coming in in all of this?
    Ms. Dory. Sure. I can respond both in the mission space and 
then organizationally. From the organizational perspective what 
you see are three different nodes where the Department of State 
and Department of Defense are interfacing and developing the 
strategies and policies. So here in Washington clearly is one 
location. The second location is at AFRICOM headquarters in 
Stuttgart, where you have a very heavy interagency presence to 
include a State Department deputy to General Ham, alongside a 
military deputy and many State Department and AID personnel; 
and thirdly at the country team level, Ambassador-led, you have 
the senior Defense officials who are engaged with State 
Department officials there. So we have something of a three-
legged stool.
    Mrs. Schmidt. How are you measuring success, AFRICOM's 
success?
    Ms. Dory. AFRICOM's success in the first instance is to 
prevent the threat of attacks against U.S. interests, against 
the U.S. homeland, against Americans overseas. By that metric I 
think we have a fair degree of success to report, but remain on 
guard and ever vigilant.
    The next mission for the command is to focus on 
contributing to partner capacity to be able to extend regional 
stability. That is really where we are focused in the hearing 
today when we look specifically at terrorism. And I think 
capacity-building is one of those long-term objectives where 
you measure your inputs in terms of the training hours that you 
provide, the equipment that you provide, the advisory services 
that you provide, and then you look at security outcomes.
    Some of the ones that we talked about in the opening 
statements include regional partners stepping up and acting in 
the threat. When faced with insecurity such as the Amazon 
mission in Somalia clear evidence, this is where we are able to 
successfully contribute and support our partners on the 
continent.
    Mrs. Schmidt. Focusing on Boko Haram and the terrorism 
situation, I know that Representatives King and Meehan wrote 
Secretary Clinton requesting that the State Department list 
Boko Haram as a terrorist organization under section 219 of the 
Immigration and Nationality Act and Executive order 13224. What 
is the status of the request and what criteria haven't been met 
to be designated as a foreign terrorist organization?
    Ambassador Benjamin. We are very concerned about Boko Haram 
and are addressing this issue through a number of different 
means in terms of our engagement with the Nigerians and the 
like. But the State Department, as a policy, doesn't comment on 
potential or perspective designations. So I am afraid I can't 
give you any more insight into that right now.
    Chairman Ros-Lehtinen. Thank you so much, Ms. Schmidt. Ms. 
Wilson, my Florida colleague is recognized.
    Ms. Wilson of Florida. Thank you, Madam Chair. The video, 
The Invisible Children, really captured the people of America, 
especially the child soldiers and all of the devastation that 
is happening. And it had me so upset I offered a resolution. I 
was just astounded.
    And I am just wondering, last year we authorized--Congress 
authorized up to $35 million per year in the budget for 2012 
and 2013 for increased support to regional counter-LRA efforts 
in the 2010 NDAA.
    Does the DoD intend to obligate the full authorized amount? 
If not, how much? And to what extent will this funding offset 
State Department payments for logistics, or will it expand 
activities beyond the current State Department-funded logistics 
support package?
    Ms. Dory. Thank you. The Department of Defense appreciated 
the authority provided under 1206 that is focused on countering 
the Lord's Resistance Army. The Department does intend to use 
the authority. It was not accompanied by an appropriation, so 
we are in the process of identifying the possibilities in order 
to fund the authority.
    What we have at this point is well-defined requirements 
provided to us via Africa Command. I think we have agreement 
between the two Departments. As you know, this is a dual-key 
authority that requires the concurrence of both the Secretary 
of Defense and Secretary of State. Our intent is to use the 
authority to provide logistics support to the regional partner 
military forces. This is something that the State Department is 
currently undertaking using peacekeeping operations funds. As 
DoD takes over that logistics support contract, we intend to 
increase the level of logistics support to the partner 
militaries.
    The other thing we intend to use the authority to do is to 
provide additional supplies to the different operations fusion 
centers that have been set up with the partner militaries by 
the deployed U.S. forces.
    Ms. Wilson of Florida. Just a follow-up, Madam Chair. We 
saw The Invisible Children in America and it was riveting. How 
many people do you think in the affected areas actually were 
exposed to that video to help them understand what was 
happening with their own families, their own surroundings, 
neighbors? How do we get that to them so that they can see and 
understand what is happening with Mr. Kony?
    Mr. Yamamoto. We were just talking to Ben Keesey, and on 
The Invisible Children, it is really--it galvanized the United 
States and people in Europe. If you talk to the people in the 
affected areas, they live it, they understand it. Sixty-six 
thousand, as you know, Representative, 66,000 kids have been 
abducted. You are talking about 2 million nearly displaced. And 
so the terror that Kony has launched in those areas are very 
much understood very well by the people.
    And going back to your previous question as well: How do 
you measure success, how do you go after Kony? And the answer 
comes in is that the Africans themselves, they know. They have 
taken the ownership. They are going after Kony. They are taking 
the lead. And they are taking ownership of all of these 
programs to help coordinate and cooperate. The issue is how can 
we help them with interoperability, communications 
coordination? You know, militaries of the CAR are probably less 
than what it is in Uganda. How do you bring those to the same 
level in cooperation?
    To answer your first question, Representative, the people 
in these affected areas know very well, and they are very 
thankful to the United States for this effort, thankful to the 
Congress for doing legislation. And so what you are doing here 
in the House really resonates very well among the citizens in 
Africa.
    Chairman Ros-Lehtinen. Thank you very much, Ms. Wilson. Mr. 
Duncan of South Carolina is recognized.
    Mr. Duncan. Thank you, Madam Chairman. Thanks for having 
this hearing.
    You know, I first off want to give kudos to the group 
Invisible Children, and raising global awareness, really, about 
the plight in Africa, in the Lord's Resistance Army and what it 
is and what Joseph Kony has done. And I understand our efforts 
from the United States to address those as well.
    I guess I am concerned about what I see with Sudan, with 
what I continue to see with al-Shabaab and the radicalization 
efforts. I know this committee and Homeland Security have 
talked numerous times over the last Congress about 
radicalization and al-Shabaab's recruitment here in the United 
States.
    And so I guess, Ms. Dory, the question for you--and this is 
going to be my only question today because I am interested in 
listening more than I am in interrogating you guys--but what 
types of U.S.-supported counter radicalization efforts have 
been most successful in your opinion?
    Ms. Dory. I would be glad to start, and I know Ambassador 
Benjamin has ideas as well.
    Mr. Connolly. Madam Chairman, could I please ask the 
witness to speak more loudly?
    Chairman Ros-Lehtinen. This is about my fourth request. 
Please, please, please. We are going to give you a 
multivitamin. Please speak right into the microphone. It makes 
for a better hearing if we can all hear you.
    Ms. Dory. Can you hear me? Thank you.
    I can give you a few insights from DoD perspective and I 
think State Department will have some to add as well. I think 
when we look at the counterterrorism mission space, recognizing 
the complex roots of the terrorism problem in the first 
instance, DoD has some very effective tools, as you are aware, 
to focus on training and equipping partner counterterrorism 
forces and to undertake counterterrorism missions directly 
ourselves. They complement those through efforts to counter 
violent extremism, counter radicalization, some of the things 
that Ambassador Benjamin has been referring to in terms of 
information operations, for example, and other efforts to 
outreach and engage.
    I think it is a complex space, and to be able to identify 
any particular element as the particular piece that is the most 
effective is a challenging thing to do, given our limited 
understanding of how terrorism operates and expands over time.
    But my short answer to you would be it is the 
complementarity of the different types of trying to focus on 
terrorist leaders and reduce them over time, and focusing on 
drying up the pool of recruits and prospects to diminish those 
who enter onto that path in the first place.
    Mr. Duncan. Ambassador Yamamoto, do we see other countries 
in the region assisting us at the level I think that Americans 
would expect other countries to assist us in the 
antiradicalization efforts, our fight against al-Qaeda, and 
world threats?
    Mr. Yamamoto. I think it is in different terms. Commitment? 
Yes, they are committed. But how--going back to your first 
question is how do you reduce radicalization in Africa and so 
many areas? And we can have all the programs in the world. What 
is going to be important is, A, are those countries addressing 
and meeting the needs of the people? Look at Nigeria, Mali, and 
other countries. We have problems of instability because of 
clans and groups, et cetera. And the issue is, can we work with 
government to address the needs of people who feel they are 
disadvantaged?
    The other issue is education and health care. You know, 
living in Africa on a good day in East Africa, one out of every 
ten children will die before the age of 5. And if that is a 
concern for parents, a concern for kids themselves, then that 
is a concern for us. And working with these governments to 
address those needs, that has been important.
    The other issue, too, is education there. If you talk about 
70 percent of Africa's 1 billion people now are under the age 
of 30, and most of them are under the age of 25, is education 
is a big issue, and also job creation and economic development.
    So in those contexts I think if you want to reduce 
radicalization, those are the areas: Holding governments 
accountable to their people; making sure that they are 
addressing those needs. And, two, working systematically with 
us on education and health care. And I think a lot of countries 
around the world are doing that and I think we are making a lot 
of good inroads.
    Mr. Duncan. Ambassador?
    Ambassador Benjamin. If I may add to that a bit. As Deputy 
Assistant Secretary Dory said, the variety of pathways to 
radicalization is enormous. And so we find someone like an 
Abdul Matalib, who was educated in elite schools, being 
radicalized. We find people in poor villages where they are 
subject to inadequate education and extreme ideology being 
radicalized. There are really countless different pathways.
    Ambassador Yamamoto is exactly correct that the high road 
to counter radicalization is putting pressure on governments 
and enabling them to provide services to their people. That 
will obviously diminish a lot of radicalization. Good 
governance and democratic institutions will make a big 
difference, the rule of law and the like. We can certainly talk 
at much greater length about this.
    Chairman Ros-Lehtinen. Thank you, Mr. Duncan. Mr. Connolly 
of Virginia is recognized.
    Mr. Connolly. Thank you, Madam Chairman, and thank you for 
holding this hearing. And I have got to say, I met with a 
number of young people from my district earlier this week on 
the subject of Joseph Kony and the LRA, and I was very 
impressed and remain impressed at the mobilization online that 
has occurred throughout this country and indeed throughout the 
world on what otherwise might be an obscure African issue far 
away. And I have to believe that, frankly, the mobilization of 
our young people on such an issue, focused on human rights, 
focused on the tragedy that has occurred in East Africa I think 
can only be to the good. And shades of my own youth in college 
on getting involved in Biafra and Bangladesh, I am on showing 
my age. But I think it is a great thing.
    I met with one young man who is from Uganda and whose 
village was targeted by Kony and the LRA, and his brother was 
indeed abducted. He managed to flee into the bush, but one of 
the points he made was there was no protection.
    Ambassador Yamamoto, you have mentioned, correctly, that 
there is a level of awareness through radio and other means, 
that certainly the word has gotten out about the need to avoid 
the occasion of trouble. But frankly, his point was there was 
no protection. The government isn't functional in large swaths, 
or wasn't at his time. He is not that old.
    And so I want to focus on that. What about institution 
building? What about the capacity of the Ugandan Government to 
expand its writ and protect its citizens from these kinds of 
tragic deprivations?
    Mr. Yamamoto. And that is the heart of a lot of the issues 
that we are trying to work on. This person probably--the LRA, 
of course, started out of the Ocoee region of northern Uganda 
where you had over 1. 8 million people displaced, and how was 
the government coping with those really staggering numbers? And 
those are issues that we have been trying to help with capacity 
building. I know Ambassador Benjamin and his group have been--
--
    Mr. Connolly. If I can, Mr. Ambassador, that is already 
sort of a consequence of the failure of the government. You 
don't have displaced people if the government has the capacity 
to in fact protect people and provide law and order.
    Mr. Yamamoto. And that is the issue, how to build capacity. 
That is one----
    Mr. Connolly. Well, how are we doing it?
    Mr. Yamamoto. I think we have made tremendous progress in 
the last decade through a lot of programs and projects to build 
institutions, to build training programs. We have INL programs 
to train police; have military being more responsive; doing 
better coordination and cooperation. I think those are areas 
that we have done.
    Mr. Connolly. Those are all good metrics for our inputs, 
but what about the output? Is the Ugandan Government in your 
view showing--and other governments in the region--in fact more 
resilience, more efficacy, in providing protection and in 
deterring the ability of the LRA to operate.
    Mr. Yamamoto. That is right. Well, the LRA is not operating 
in Uganda anymore. They are now in Congo. But those troops from 
Uganda are in the CAR and other areas to help coordinate with 
those military forces to go after the LRA. And then its context 
is how to build up security in Uganda.
    As you know, Congressman, Ugandan troops are also in 
Somalia, helping their stabilization. They have done a 
tremendous job in the last decade.
    Mr. Connolly. Part and parcel of this conversation also is 
building our partnership capacity efforts throughout Africa. We 
put a lot of money through 1206 into countries like Mali. Is it 
your same assessment that they have also proved to be 
effective?
    Mr. Yamamoto. Mali was a greater disappointment because 
this was a country that was on the right track and the coup 
basically set it back a great deal. So now we are starting from 
scratch to do rehabilitation and restore good governance. But 
there are people in place who can fill the void, but we are 
going to give them the opportunity.
    Mr. Connolly. A great disappointment. The coup leader in 
Mali was in fact trained by the United States, was he not?
    Mr. Yamamoto. That is right.
    Mr. Connolly. With funds under this program.
    Mr. Yamamoto. That is correct.
    Mr. Connolly. So does that cause us to assess our own 
effectiveness in this program.
    Mr. Yamamoto. I think that one person does not detract from 
the overall goodness of the program.
    Mr. Connolly. Well, that one person overthrew an elected 
government.
    Mr. Yamamoto. That is right. Just look at throughout 
Africa. We now have over about 200,000 trained troops through 
these programs, through INET, FMF, et cetera, and 80,000 are 
now in peacekeeping operations doing great jobs. So we cannot 
judge on Captain Sanogo and his insanity and what he did.
    Mr. Connolly. Well, I think you will forgive the American 
people for wondering a little bit about how effective their tax 
dollars have been invested when that is the outcome, even if it 
is one guy. He sure did have a big impact on the country and, 
as you point out, set back in many ways many of the investments 
that were made since 2006.
    My time is up, Madam Chair, thank you.
    Chairman Ros-Lehtinen. Thank you. Mr. Rohrabacher is 
recognized.
    Mr. Rohrabacher. You know, Madam Chair, I believe that Mr. 
Royce was here before me.
    Chairman Ros-Lehtinen. So sorry, I didn't see you.
    Mr. Rohrabacher. But I appreciate your consideration.
    Chairman Ros-Lehtinen. Sorry, he was not in my sight line.
    Mr. Rohrabacher. I also appreciate your Cuban coffee.
    Chairman Ros-Lehtinen. Thank you. Mr. Royce is recognized.
    Mr. Royce. I thank my colleague in California and thank 
you, Madam Chair. Going back to the point of 800,000 people who 
are displaced in northern Uganda, there is a reason they are 
displaced. It is one man and one war lord. And when we think 
about what could be done to bring Joseph Kony to justice, one 
of the most important things is apprehending him.
    Tomorrow, a very important event occurs, and that is the 
verdict from the War Crimes Tribunal is going to be read with 
respect to Charles Taylor. That is an issue that this committee 
worked for years on how to get him apprehended and then turned 
over to the bar of justice. Because no matter how much money we 
have spent in Sierra Leone, in Liberia, in the region, across 
West Africa, there was no way to keep up with the mayhem he was 
able to cause. And certainly between now and tomorrow, there is 
going to be a lot of people in West Africa hoping--hoping that 
this decision tomorrow will see him put away for life.
    But in terms of the apprehension of Joseph Kony, I have 
legislation, H.R. 4077, to allow for a rewards program. It has 
bipartisan support. Our military is interested in having it put 
into action soon. So I just mention that in the hopes that we 
can help move this legislation, get your views on that.
    Also I wanted to ask about how involved al-Qaeda in the 
Islamic Maghreb is in terms of the drug trade, because one of 
the things we found in terms of the nexus with Taylor was his 
willingness to be engaged in the blood diamonds trade and these 
types of activities to get his hands on hard currency. So if I 
could ask that question as well.
    Ms. Dory. If I could start on the Rewards for Justice 
program, just to express the support of the Department of 
Defense and General Ham at Africa Command's endorsement.
    Mr. Royce. Thank you. I appreciate it.
    Ambassador Benjamin. Good to see you again, Mr. Royce. On 
the issue of the drug trade and AQIM, AQIM has managed to fill 
its coffers quite effectively with kidnapping for ransom. In 
the last few years they have really acquired millions and 
millions of dollars through this practice.
    Now, AQIM does operate in the same area that some of the 
smuggling and drug trading lines run through, and they may--
there may be some racketeering, essentially, some effort to 
shake down the drug traders and extort rents from them to 
operate in those areas. But by and large, we haven't seen AQIM 
turned into a drug cartel or a drug organization.
    Mr. Royce. Let me ask you another question, then. This will 
go to Boko Haram in Nigeria. We saw the first suicide attacks 
there recently. And those are the first in Nigerian history. 
But if we look back at al-Shabaab as it began to morph, it 
launched its first suicide attacks back in 2006. And recently, 
you have got the full strategic alliance with the announcement, 
the public declaration recently that they are joining forces 
with al-Qaeda, that they are part of al-Qaeda. How similar is 
the fact that now we are seeing this change in tactics by Boko 
Haram?
    I know a governor from northern Nigeria who has told me 
that he sees the Gulf State influence there in terms of radical 
ideology in some of the immans teaching locally and changing 
the culture to the type of culture that we saw with al-Shabaab 
being driven--being driven by radical ideology.
    Tell me--I am trying to gauge where we are in this process, 
but what can we expect in a few years from Boko Haram in your 
opinion?
    Ambassador Benjamin. Well, I don't have a crystal ball. I 
would say that it is clear that Boko Haram has gotten some 
training and adapted some of the tactics that are common to the 
AQ affiliates, and we believe that that happened principally 
from al-Qaeda in the Islamic Magreb, not from al-Shabaab, 
although there are sporadic contacts there as well.
    We have also seen Boko Haram has adopted--or has shown its 
ability to target non-Nigerian targets, as it did with the 
U.N., and that is a worrisome sign.
    Chairman Ros-Lehtinen. Thank you.
    Ambassador Benjamin. But it is a still a heterogeneous 
group.
    Chairman Ros-Lehtinen. Thank you. Thank you very much, Mr. 
Royce.
    Mr. Royce. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Madam Chairman.
    I would like to ask the Ambassador--it is nice to see you 
again, Mr. Ambassador. We have over the years had several major 
little confrontations of our own. I would like to ask you, do 
you believe that a lack of democracy and human rights feeds 
radicalism and terrorism? And is that so in Africa?
    Mr. Yamamoto. There are always--I think fundamentally the 
issue is if a government is not accountable to its people, then 
that really goes against President Obama's first pillar, which 
is good governance, democracy, and institutions. And so the 
issue comes in as yes; without those accountability and 
democratic institutions, then you have problems.
    Mr. Rohrabacher. And I remember that we had some concerns 
earlier, the two of us--but just for the record you were 
Ambassador to Ethiopia from 2006 to 2009, and during that time 
period there were some major human rights issues in Ethiopia.
    Can you tell us what the--my recollection is that the 
government got away with murder in Ethiopia and we let them get 
away with that. Did that in some way--has that in some way fed 
the radicalism of Africa today as compared to people who, if 
you would have had an honest democratic government in that huge 
country of Ethiopia, it might have been more of an example, a 
positive example, rather than something that fed terrorism?
    Mr. Yamamoto. I think Ethiopia, and specifically Africa in 
general, are different issues. But on the Ethiopia issue, we 
went in and had heart-to-heart talks. I met with all the NGO 
groups, the local communities, with all the opposition groups. 
We worked very hard behind the scenes. As you know, we had 21 
of the people who were placed in jail, the political prisoners, 
released. That took a long time but we did it.
    The other issue is that we started now intergovernment, 
intragovernmental issues, discussions with Ethiopia and the 
United States. We are heading to discussions this summer, and 
the topics are on democratic values and how we expand 
institution building and how we develop this relationship. 
Because, again, Ethiopia is an important country not only on 
counterterrorism issues but also as a symbol for what is the 
stability for that region. And one of the stability issues, you 
said Congressman, you have been a great advocate, is democratic 
values.
    Mr. Rohrabacher. I would hope that pressure from Congress 
and perhaps from this committee actually assisted you in having 
those prisoners released. And I would hope that our Government 
makes it clear to people like those who govern Ethiopia that we 
take this very seriously, and the corruption level and the 
repression level in that country and in other countries in 
Africa is unacceptable.
    Let me ask a little bit about the financing of this, as my 
colleague has mentioned, blood diamonds. I saw that movie, it 
was a perfect film. But I tend to believe that perhaps there 
are other people to focus on in terms of the financing of these 
radical and monstrously violent groups that are marauding 
around Africa.
    What role does--I mean, if we are talking about al-Qaeda 
and that in Africa, are the Saudis playing a role in financing 
this as they have in other parts of the world? And is China 
playing any role, positive role, a positive role at all, or are 
they playing a negative role in confronting these types of 
horrible attacks on decent government in Africa? To the whole 
panel. That would be fine.
    Ambassador Benjamin. Thank you, sir. The primary finances 
for the radical groups that we are concerned with come from 
kidnapping for ransom and crime, different kinds of fraud, 
theft, you name it.
    Mr. Rohrabacher. No evidence that the Saudis are coming 
from the outside.
    Ambassador Benjamin. With al-Shabaab, it is also such 
things as the charcoal trade and their control of the Port of 
Kismayo and the attacks they put on that port. There may be 
external donors, but it is a small part of the overall funding 
picture.
    Mr. Rohrabacher. All right. Well, thank you very much.
    Chairman Ros-Lehtinen. Thank you. And our last questioner 
will be Mr. Rivera, another one of my Florida colleagues.
    Mr. Rivera. Thank you very much, Madam Chair. I will 
probably direct my questions to Ambassador Yamamoto and 
Ambassador Benjamin as well. It is my understanding that 
Polisario-run refugee camps in Algeria have become a recruiting 
ground for al-Qaeda in Morocco, a hub for opportunistic 
Polisario drug traffickers, and a threat to the region and the 
reforms--some of the reforms that we saw in the Arab Spring.
    Since 1990, international support for the camps has 
exceeded $1 billion is my understanding, and that USAID exceeds 
$300 million for the camps. So it appears that the U.S. 
taxpayer is being called upon to partly fund the operation of 
camps that are being increasingly exploited by regional 
terrorist groups. So how is the administration dealing with 
this appearance at least?
    Ambassador Benjamin. Sir, I have seen reports of al-Qaeda 
involvement in Polisario camps, and whenever we have dug deeper 
we have found that those reports were spurious. I am happy to 
go back and have a look again and see if there is anything new 
that has come in on this. But on a number of occasions we have 
investigated these allegations in the past and found that there 
was no substance to them. But why don't we get back to you on 
that to ensure that we have up-to-date information?
    Mr. Rivera. Ambassador Yamamoto, do you have anything to 
add? Okay. That is all, Madam Chair.
    Chairman Ros-Lehtinen. And I would be interested in that 
information as well. Thank you so much.
    We would like to remind the panelists and the audience and 
the members that at Statuary Hall at 11 o'clock, we will be 
walking from here to there for a memorial service in 
celebration of our departed colleague, Don Payne's life, and I 
know that he was a very important person to each and every one 
of you.
    So thank you very much. And with that, the committee is 
adjourned.
    [Whereupon, at 10:45 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
